First Source Federal Credit Union

CREDIT CARD AGREEMENT

4451 Commercial Drive
New Hartford, NY 13413
(315) 735-8571
(800) 735-8571
BORROWER 1

ACCOUNT NUMBER

BORROWER 2

DATE

In this Agreement, “You” and “your” mean any person who accepts this Agreement or uses the Card. The “Card” means any credit card issued to you or
those designated by you under the terms of this Agreement. “We”, “us”, “our” and the “Credit Union” means First Source Federal Credit Union or its
successors. By using your card, you agree to all of the terms and conditions set forth herein.
THE GRANTING OF THIS SECURITY INTEREST IS A CONDITION
FOR THE ISSUANCE OF CREDIT UNDER THIS AGREEMENT.
YOU SPECIFICALLY GRANT US A CONSENSUAL SECURITY
INTEREST IN ALL INDIVIDUAL AND JOINT ACCOUNTS YOU HAVE
WITH US NOW AND IN THE FUTURE TO SECURE REPAYMENT OF
CREDIT EXTENDED UNDER THIS AGREEMENT. YOU ALSO
AGREE THAT WE HAVE SIMILAR STATUTORY LIEN RIGHTS
UNDER STATE AND/OR FEDERAL LAW. IF YOU ARE IN DEFAULT,
WE CAN APPLY YOUR SHARES TO THE AMOUNT YOU OWE.
Shares and deposits in an Individual Retirement Account or any other
account that would lose special tax treatment under state or federal law
if given are not subject to this security interest.
If you have other loans with us, collateral securing such loans will also
secure your obligations under this Agreement, unless that other collateral
is your principal residence or non-purchase money household goods.
Using Your Card. You can purchase or lease goods and services from
any merchant who honors your Card, and you may obtain cash advances
from financial institutions and ATM machines that accept the Card, up to
your maximum credit limit. You agree not to present your Card or obtain a
cash advance for any extension of credit in excess of your available credit
limit; however, if you do exceed your credit limit, you agree to make
immediate payment sufficient to bring the balance below the credit limit.
Certain purchases and cash advances require authorization prior to
completion of the transaction. In some cases, you may be asked to
provide identification. If our system is not working, we may not be able to
authorize a transaction, even though you have sufficient credit available.
Also, for security reasons, we may block the use of your Card in certain
countries or geographic areas. We will have no liability to you or others if
any of these events occur.
Personal Identification Number (PIN). We may issue a Personal
Identification Number (PIN) for use with your Card. This PIN is confidential
and should not be disclosed to anyone. You may use your PIN and your
Card to access your account, and all sums advanced will be added to
your account balance. In the event a use of your PIN constitutes an
Electronic Funds Transfer, the terms and conditions of your Electronic
Funds Transfer Agreement may affect your rights.
Promise To Pay. You promise to pay us in U.S. dollars for (a) all
purchases, cash advances, and balance transfers made by you or anyone
whom you authorize to use the Card; (b) all Interest Charges and all other
charges or fees; (c) collection costs and attorney's fees as permitted by
applicable law, and any costs incurred in the recovery of the Card; and (d)
credit in excess of your credit limit that we may extend to you.
Illegal Transactions: You agree that your Card and account will not be
used to make or facilitate any illegal transactions as determined by
applicable law; and that any such use will constitute an event of default
under this Agreement. We may decline any transaction that we believe to
be illegal under applicable law, including but not limited to any transaction
involving or relating to any gambling activity. You agree that we will have
no liability or responsibility for any such use by you or any authorized
user(s); or for declining any such transaction. You further agree to
indemnify and hold us harmless from any suits, liability, damages or

adverse action of any kind that results directly or indirectly from such
illegal use. You promise to pay us any and all amounts owing on your
Card for any transactions made by you, even if the transaction is
determined to be illegal.
Joint Accounts. Each of you will be responsible, jointly and severally, for
the repayment of amounts owed, regardless of who initiated any
transaction under the account.
Others Using Your Account. If you allow anyone else to use your
account, you will be liable for all credit extended to such persons. You
promise to pay for all purchases and advances made by anyone you
authorize to use your account, whether or not you notify us that he or she
will be using it. If someone else is authorized to use your account and you
want to end that person's privilege, you must notify us in writing, and if he
or she has a Card, you must return that Card with your written notice for it
to be effective.
Ownership of Card. Your Card remains our property and may be
cancelled by us at any time without notice. You agree to surrender your
Card and to discontinue use of the account immediately upon our request.
Interest Charges. You agree to pay interest at the rate(s) disclosed to
you at the time you open your account and as may be changed from time
to time in accordance with applicable law Average Daily Balance including
new transactions: Interest Charges will accrue on your average daily
balance outstanding during the month. To get the average daily balance,
we take the beginning balance each day, add any new purchases, cash
advances, balance transfers or other advances, and debit adjustments
and subtract any unpaid late charges. This gives us the daily balance.
Then, we add up all the daily balances for the billing cycle and divide that
by the number of days in the billing cycle. We then multiply that by the
periodic rate corresponding to the Annual Percentage Rate on your
account. If you have different rates for purchases, cash advances or
balance transfers, separate average daily balances for each will be
calculated and the appropriate periodic rate is then applied to each.
Grace Period on Purchases Only: You can avoid Interest Charges on
purchases by paying the full amount of the new balance for purchases
each month by the date on which the payment is due. Otherwise, the new
balance of your account, and subsequent advances from the date they
are posted to the account, will be subject to an Interest Charge. You
cannot avoid Interest Charges on cash advances and balance transfers;
even if you pay the entire cash advance balance or balance transfer
balance by the payment due date, you will incur the Interest Charges
accrued from the date the cash advance or balance transfer is posted to
your account.
Fees. In addition to the Interest Charges set forth above, you agree to
also pay any and all fees that you incur as disclosed to you on your Truthin-Lending Statement or similar disclosures (as may be amended from
time to time), or as disclosed to you during the term of your Card. ~
If Your Card is Lost or Stolen or if an Unauthorized Use Occurs. You
agree to notify us immediately if your Card is ever lost or stolen or if an
unauthorized use may have occurred. "Unauthorized use" means the use
of the Card by someone other than you who does not have actual, implied
or apparent authority for such use, and from which you receive no benefit.
The telephone number to call is (800) 449-7728. You agree to follow up

9011 LASER WORD FI14159 Rev 4-2019

COPYRIGHT 2009 Securian Financial Group, Inc. All rights reserved.

page 1 of 3

your call with notice in writing to us at: 4451 Commercial Drive, New
Hartford, NY 13413. You also agree to assist us in determining the facts,
circumstances and other pertinent information relating to any loss, theft or
possible unauthorized use of your Card and comply with such procedures
as we may require in connection with our investigation. You will be liable
for any unauthorized use only if we can prove that you were negligent in
your use or handling of your Card, or if we can prove that you used your
Card fraudulently.
Minimum Payment Due; Crediting of Payments. Payments are due in
the amount and on the date disclosed on your billing statement. If your
payment is received by us on a business day at the address and by the
time designated on the billing statement, it will be credited to your account
on the date of receipt. If payment is made at any location other than the
address designated on the periodic statement, credit for such payment
may be delayed up to five (5) days. Payments will be applied in any order
we determine, subject to applicable law.
Default; Acceleration; Credit Suspension; Collection Costs. You will
be in default if: (1) you fail to make any payment on time; (2) if you fail to
keep any promises you have made under this Agreement or under other
Agreements you have with us; (3) if you die; (4) if you file a petition in
bankruptcy or have a bankruptcy petition filed against you, or if you
become involved in any insolvency, receivership or custodial proceeding;
(5) if anyone attempts to take any of your funds held by us via legal
process or if you have a judgment or tax lien filed against you; (6) if you
make any false, inaccurate, or misleading statements in any credit
application or credit update; or (7) if we, in good faith, believe that your
ability to repay what you owe is or soon will be impaired, or that you are
unwilling to make your payments.
If you are in default, we have the right to demand immediate payment of
your full account balance without giving you notice. If immediate payment
is demanded, you agree to continue paying interest charges and fees until
what you owe has been paid, and any shares that were given as security
for your account may be applied towards what you owe. You agree to pay
all reasonable costs of collection, including court costs and attorney's
fees, and any costs incurred in the recovery of the Card, subject to
applicable law. Even if your unpaid balance is less than your credit limit,
you will have no credit available during any time that any aspect of your
account is in default.
Suspension of electronic services and access to share or deposit
accounts. Subject to applicable law, we may suspend some or all
electronic services and access to your checking or other account(s) if you
become delinquent on any of your credit card or deposit obligations to us
or you cause a loss to us. We shall not be liable to you in any regard in
connection with such suspension of services.
Additional Benefits/Card Enhancements. We may from time to time
offer additional services to your Account at no additional cost to you. You
understand that we are not obligated to offer such services and may
withdraw or change them at any time.
Convenience Checks. We may, at our discretion, issue checks to you
which may be used for any purpose other than making a payment for
credit to your account. By signing such check, you authorize us to pay the
item for the amount indicated and post such amount as a cash advance to
your account. We do not have to pay any item which would cause the
outstanding balance in your account to exceed your credit limit.
Credit Information. We may from time to time request personal
information from you or obtain credit reports from the credit reporting
agencies for the purpose of updating your credit status. Your failure to
provide such information when requested by us may result in suspension
of credit privileges under this Agreement, including your ability to obtain
any future advances by any means. You authorize us to investigate your
credit standing when opening or reviewing your account. You authorize us
to disclose information regarding your account to credit bureau and
creditors who inquire about your credit standing.
Foreign Transactions; Currency Conversion. Purchases and cash
advances made in foreign currencies will be billed to you in U.S. dollars.
The conversion rate in dollars will be a rate selected by the card company
from a range of rates available in wholesale currency markets for the

applicable central processing date, which rate may vary from the rate the
card company itself receives, or the government-mandated rate in effect
for the applicable central processing date in each instance. All
transactions processed outside of the United States (which may include
internet transactions) will be charged a foreign transaction fee in the
amount disclosed on your Truth-in-Lending Statement (as amended from
time to time).
Termination; Change-in-Terms. We may, by written notice, terminate
this Agreement at any time, subject to applicable law. You may terminate
this Agreement by written notice. Termination by either party shall not
affect your obligation to repay any payments made for your account
resulting from use of the Card as well as Interest Charges and fees
incurred. We may change the terms of this Agreement, including the
method of calculating the periodic rate, at any time, by written notice,
subject to applicable law. Use of the Card constitutes agreement and
acceptance of any change in terms, unless applicable law requires
otherwise. Our failure to exercise any of our rights or to take any action
shall not constitute a waiver of those rights, or an amendment or change
in any of the terms of this Agreement.
Late or Partial Payments. Any payment that delays the reduction of your
balance will increase your total interest costs. Partial payments or
prepayments will not delay your next scheduled payment - you will still
need to make the minimum scheduled payment by the next scheduled
due date to keep your account current. We may accept late payments,
partial payments, checks or money orders marked "payment in full" and
such action shall not constitute final settlement of your account or a
waiver or forgiveness of any amounts owing under this Agreement.
Enforcement. We do not lose our rights under this or any related
agreement if we delay enforcing them. If any provision of this or any
related agreement is determined to be unenforceable or invalid, all other
provisions remain in full force and effect.
Returns and Adjustments. Merchants and others who honor the Card
may give credit for returns or adjustments, and they will do so by
submitting a credit slip which will be posted to your account. If your credits
and payments exceed what you owe us, the amount will be applied
against future purchases and cash advances. If the credit balance amount
is $1 or more, it will be refunded upon your written or verbal request.
Plan Merchant Disputes. We are not responsible for the refusal of any
plan merchant or financial institution to honor your Card. Also, we are not
responsible for goods or services that you purchase with the Card unless:
(a) your purchase was made in response to an advertisement we sent or
participated in sending you; or (b) your purchase cost more than $50 and
was made from a plan merchant in your state or within 100 miles of your
home; and only if you have made a good faith attempt, but have been
unable to obtain satisfaction from the plan merchant. You must resolve all
other disputes directly with the plan merchant. We do not warrant any
merchandise or services purchased by you with the Card.
Statements and Notices. Statements and notices will be mailed to you at
the most recent postal address or e-mail address (if you have elected to
receive such documents via electronic means) you have given us. Notice
sent to any one of you will be considered notice to all.
Notification of Address Change. You will notify us promptly if you
change your address for any reason. In order to prevent identity theft,
your identity may need to be verified before we act upon the notification.
Copy Received. You acknowledge that you have received a copy of this
Agreement.
Governing Law. This Agreement shall be construed under federal law
and state law in the state in which we are primarily located, and the venue
shall be located in the county and state in which we are primarily located.
Operating regulations of Visa may also apply. This Agreement is the
contract that applies to all transactions even though the sales, cash
advance, convenience check, credit or other slips you sign or receive may
contain different terms.
NOTICE TO UTAH BORROWERS: This written agreement is a final
expression of the agreement between you and the Credit Union. This
written agreement may not be contradicted by evidence of any oral
agreement.~

9011 LASER WORD FI14159 Rev 4-2019

COPYRIGHT 2009 Securian Financial Group, Inc. All rights reserved.

page 2 of 3

BORROWER NAME

ACCOUNT NUMBER

IMPORTANT DISCLOSURES FOR ACTIVE MEMBERS OF THE MILITARY AND THEIR DEPENDENTS:
The following applies if at the time this loan is made you are an active member of the military or a dependent (as those terms are defined in the
Military Lending Act (MLA), 10 U.S.C. 987 and its implementing regulations (“MLA”)), and (a) your loan is unsecured or secured by personal property
or a vehicle that you did not purchase with the proceeds of the loan; or (b) it is otherwise determined by law that the MLA applies to your loan. If this
loan is a revolving line of credit or credit card, the MLA ceases to apply at any time during which you are not a member of the military or a dependent
(as defined in the MLA).
1. NOTICE: Federal law provides important protections to members of the Armed Forces and their dependents relating to extensions of
consumer credit. In general, the cost of consumer credit to a member of the Armed Forces and his or her dependent may not exceed an annual
percentage rate of 36 percent. This rate must include, as applicable to the credit transaction or account: the costs associated with credit
insurance premiums or debt protection fees; fees for ancillary products sold in connection with the credit transaction; any application fee charged
(other than certain application fees for specified credit transactions or accounts); and any participation fee charged (other than certain
participation fees for a credit card account). To receive this notice verbally, please call 315-735-8571 or toll-free at 1-800-735-8571 during our
normal business hours.
2. This loan will not be secured by a consensual lien on shares or deposits in any of your accounts unless you agree to establish an account in
connection with this loan (“Secured Account”). Only funds deposited into the Secured Account after the loan is made will secure this loan. Any
cross-collateralization provision contained in your loan or account documents will not apply to the Secured Account or your other share or
deposit accounts for any loan subject to the Military Lending Act.
However, we reserve our statutory lien rights and rights to set-off or administrative freeze under federal or state law, which gives us the right to
apply the sums in the Secured Account or any other account(s) you have with us to satisfy your obligations under this loan.
3. Any reference in this consumer credit contract to the following are hereby inapplicable to your loan: (a) Mandatory arbitration; (b) Any
requirement(s) to waive your rights to legal recourse under any applicable state or federal law; (c) Any demands or requirements construed as
unreasonable notice from you in order to exercise your legal rights; or (d) Prepayment penalties.
4. Any provisions in your consumer credit contract, loan, security, or account agreements that are determined to be inconsistent with or
contradictory to these disclosures or the MLA (as they may be changed or amended from time to time) are inapplicable with regard to this loan.
However, all other terms and conditions of the consumer credit contract shall remain in full force and effect.
BILLING RIGHTS NOTICE
Your Billing Rights: Keep this Document for Future Use
This notice tells you about your rights and our responsibilities under the
Fair Credit Billing Act.
What To Do If You Find A Mistake On Your Statement
If you think there is an error on your statement, write to us at the
address(es) listed on your statement.
In your letter, give us the following information:
1. Your name and account number.
2. The dollar amount of the suspected error.
3. If you think there is an error on your bill, describe what you
believe is wrong and why you believe it is a mistake.
You must contact us:
 Within 60 days after the error appeared on your statement.
 At least 3 business days before an automated payment is
scheduled, if you want to stop payment on the amount you think
is wrong.
You must notify us of any potential errors in writing. You may call us, but if
you do, we are not required to investigate any potential errors and you
may have to pay the amount in question.
What Will Happen After We Receive Your Letter
When we receive your letter, we must do two things:
1. Within 30 days of receiving your letter, we must tell you that we
received your letter. We will also tell you if we have already
corrected the error.
2. Within 90 days of receiving your letter, we must either correct
the error or explain to you why we believe the bill is correct.
While we investigate whether or not there has been an error:
 We cannot try to collect the amount in question, or report you as
delinquent on that amount.
 The charge in question may remain on your statement, and we
may continue to charge you interest on that amount.
 While you do not have to pay the amount in question, you are
responsible for the remainder of your balance.
 We can apply any unpaid amount against your credit limit.
After we finish our investigation, one of two things will happen:

9011 LASER WORD FI14159 Rev 4-2019



If we made a mistake: You will not have to pay the amount in
question or any interest or other fees related to that amount.



If we do not believe there was a mistake: You will have to pay
the amount in question, along with applicable interest and fees.
We will send you a statement of the amount you owe and the
date payment is due. We may then report you as delinquent if
you do not pay the amount we think you owe.
If you receive our explanation but still believe your bill is wrong, you
must write to us within 10 days telling us that you still refuse to pay. If
you do so, we cannot report you as delinquent without also reporting
that you are questioning your bill. We must tell you the name of
anyone to whom we reported you as delinquent, and we must let
those organizations know when the matter has been settled between
us.
If we do not follow all of the rules above, you do not have to pay the
first $50 of the amount you question even if your bill is correct.
Your Rights If You Are Dissatisfied With Your Credit Card
Purchases
If you are dissatisfied with the goods or services that you have
purchased with your credit card, and you have tried in good faith to
correct the problem with the merchant, you may have the right not to
pay the remaining amount due on the purchase. To use this right, all
of the following must be true:
1. The purchase must have been made in your home state or
within 100 miles of your current mailing address, and the
purchase price must have been more than $50. (Note: Neither
of these are necessary if your purchase was based on an
advertisement we mailed to you, or if we own the company that
sold you the goods or services.)
2. You must have used your credit card for the purchase.
Purchases made with cash advances from an ATM or with a
check that accesses your credit card account do not qualify.
3. You must not yet have fully paid for the purchase.
If all of the criteria above are met and you are still dissatisfied with
the purchase, contact us in writing at the address(es) listed on your
statement.
While we investigate, the same rules apply to the disputed amount
as discussed above. After we finish our investigation, we will tell you
our decision. At that point, if we think you owe an amount and you do
not pay, we may report you as delinquent.~
COPYRIGHT 2009 Securian Financial Group, Inc. All rights reserved.

page 3 of 3

